WAIVER

Supreme Court, U.S.
FILED

JUL 1 1 2019

Supreme Court of the United States OFFICE OF THE CLERK
No. 19-22
Rickey Newsome
-(Petitioner)

v.

LLC RSL Funding, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Ge Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record fore the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be file by a Bar member.
Signature
Date:. 7/1

2019

(Type or print) Name

E. John Gorman
OMs.

:Mrs.

OMiss

The Feldman Law Firm LLP
Address1980 Post Oak Blvd., Ste. 1900
Firm

City & State

Houston, Texas
••

Phone

Zip

77056

(713) 850-0700

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL .CERTIFICATE OF SERVICE IS REQUIRED.

Cc: Earl S. Nesbitt
Nesbitt, Vassar, & McCown, L.L.P.
15851 Dallas Parkway, Suite 800
Addison, TX 75001
Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

